                   U.S. Department of Agriculture

                      Office of Inspector General
                                Southeast Region




        Audit Report

  Food and Nutrition Service
Summer Food Service Program
Operated by the State of Georgia




                              Report 27099-63-At
                                     March 2008
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Southeast Region - Audit
                                  401 West Peachtree Street, Suite 2328
                                         Atlanta, Georgia 30308
                                 TEL: 404-730-3210 FAX: 404-730-3221




March 31, 2008

REPLY TO
ATTN OF:       27099-63-At

TO:            Donald E. Arnette
               Regional Administrator
               Food and Nutrition Service

FROM:          Raymond G. Poland /S/
               Regional Inspector General

SUBJECT:       Food and Nutrition Service Summer Food Service Program Operated by the State
               of Georgia


This report presents the results of the subject audit. Your response to the official draft report,
dated March 28, 2008, is included as exhibit D, with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the Findings and Recommendations section of the
report.

Based on your response, we were able to reach management decisions on Recommendations 1,
2, 3, 4, 6, 8, 9, 10, and 11. Please follow your internal agency procedures in forwarding final
action correspondence to the Office of the Chief Financial officer. Management decisions for
Recommendations 5 and 7 can be reached once you have provided us with the additional
information outlined in the OIG Position section after each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the planned corrective actions and the timeframes for implementation for those
recommendations for which a management decision has not been reached. Please note that
regulation requires management decision to be reached on all findings and recommendations
within 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this                                                                                  audit.
Executive Summary
Food and Nutrition Service Summer Food Service Program Operated by the
State of Georgia (Audit Report 27099-63-At)

Results in Brief                     The Food and Nutrition Service (FNS) oversees the administration of the
                                     Summer Food Service Program (SFSP) and within each State, the State
                                     Department of Education or a State-designated agency administers the SFSP
                                     to help provide nutritious meals for children, ages 18 years and younger,
                                     when school is not in session. They, in turn, rely on local entities known as
                                     sponsors to operate the SFSP at one or more sites. The State agency (SA)
                                     reimburses these sponsors with Federal funds to cover their administrative
                                     and operating costs. The Office of Inspector General (OIG) initiated this
                                     audit to evaluate the adequacy of the SA’s administration of the SFSP and
                                     whether sponsors complied with SFSP regulations and policies.

                                     We reviewed two private non-profit organizations (PNO)—Project New
                                     Direction, Inc. (PND) and Restoration Ministries, Inc., (RM)—who had the
                                     second and third largest PNO reimbursements in fiscal year (FY) 2005 for the
                                     State of Georgia. The two sponsors claimed reimbursement for unsupported
                                     expenses, and inflated their meal counts. We identified questionable
                                     reimbursements in the amount of $215,6221 (17 percent) of the $1.28 million
                                     in program funds both sponsors received for FYs 2005 and 2006 (see
                                     Exhibit A).

                                     FNS and SA Need to Improve their Oversight of the SFSP

                                     FNS and the SA need to improve how they oversee sponsors, especially
                                     sponsors who are deemed “problematic” 2 and who have a history of failing
                                     to comply with program regulations. For FYs 2005 and 2006, the SA
                                     declared 24 private non-profit sponsors as problematic and 16 sponsors as
                                     seriously deficient.3 We identified several weaknesses with the current
                                     oversight process:

                                          •     FNS did not verify whether the SA ensured sponsors corrected
                                                problems noted during FNS reviews. FNS lacks procedures for
                                                followup on program violations identified in its reviews and ensuring
                                                that corrective actions were implemented.

                                          •     The SA was not enforcing its own SFSP policy to remove sponsors
                                                from the program if their operations were found to be seriously

1
  This amount does not include $34,830 withheld from the sponsors’ August 2006 claim per OIG Management Alert recommendations.
2
  Title 7, Code of Federal Regulations (CFR), Section 225.6.c.2 defines “problematic” as sponsors determined by the SA who have experienced significant
operational problems in the prior year.
3
  A serious deficient sponsor means a declaration made by the SA for a sponsor who has committed one or more serious deficiencies and has repeated
errors/or findings that are serious in nature.

USDA/OIG-A/27099-63-At                                                                                                                        Page i
                                                 deficient; especially if FNS and SA reviews repeatedly disclosed the
                                                 same deficiencies over several years.

                                            •    The SA lacked controls to prevent sponsors from claiming more
                                                 meals at their feeding sites than meals approved.

                                            •    The SA did not ensure problematic sponsors performed adequate
                                                 monitoring reviews of their feeding sites.

                                      FNS and the SA need to implement controls to address these weaknesses in
                                      order to more effectively remove problem sponsors from the SFSP.

                                      Sponsors Did Not Comply with Program Regulations

                                      PND and RM increased their reimbursement by including block-claiming4,
                                      serving meals at unapproved sites, claiming more meals than was allowed at
                                      approved sites, operating more than the required number of sites, and
                                      claiming meals that were not kept at the required temperature. Also, RM
                                      claimed 600 meals per serving without a waiver from either the SA or FNS
                                      (the maximum number of meals allowed per serving without a waiver is 300).

                                      PND claimed $11,252 in rental expense for a building it actually owned and claimed
                                      $68,757 in van rental expenses for which it could not provide adequate
                                      documentation.5 RM claimed $6,678 in administrative mileage traveled but could
                                      only provide documentation for $2,352 in actual mileage costs.

                                      In total we found the two sponsors received $215,6226 in questionable
                                      reimbursements for FYs 2005 and 2006. On September 20, 2006, OIG issued
                                      to FNS a Management Alert to inform FNS of these sponsors’ violations of
                                      SFSP regulations and to recommend that the SA withhold the sponsors
                                      August 2006 SFSP payments. FNS agreed and instructed the SA to withhold
                                      the sponsors’ August 2006 claims totaling $34,830.7

Recommendations
in Brief                              To improve the Georgia SFSP operations we are recommending that FNS:

                                             •    Establish controls to followup on all reviews of sponsors to ensure
                                                  corrective actions have been implemented.



4
  Daily meal count forms that indicate the same number of meals claimed for three or more consecutive days.
5
  PND provided us invoices for van rental and building expenses that could not be supported. We referred these issues to OIG Investigations, which were
discussed with the U.S. Attorney. The U.S. Attorney declined to open an investigation because the monetary amounts did not meet its threshold for
prosecution.
6
  Based upon FNS’ written response to the official draft, OIG agrees that certain claimed breakfasts which we initially considered ineligible, are eligible
for reimbursement. Consequently, we have reduced the cited overpayment in the final report accordingly.
7
  The August 2006 reimbursement claim for PND and RM totaled $14,369 and $20,461 respectively. RM appealed the SA’s decision and its appeal was
denied by an Administrative Law Judge.

USDA/OIG-A/27099-63-At                                                                                                                            Page ii
                         •   Instruct the SA to conduct a followup review of problematic and
                             seriously deficient sponsors and ensure that sufficient corrective
                             actions have been implemented or terminate these sponsors.

                         •   Instruct the SA to evaluate the conditions disclosed during this audit
                             and determine if the two sponsors are seriously deficient in their
                             operations of the SFSP and warrant removal from the program.

                         •   Require the SA to initiate steps to recover $215,622 in questionable
                             reimbursements received by PND and RM for 2005 and 2006 and
                             disallow their August 2006 claims of $34,830.

Agency Position    In its response dated March 28, 2008, FNS generally concurred with the
                   findings and recommendations as presented. For Recommendations 5 and
                   7, FNS did not agree to recover the amounts paid to sponsors for meal counts
                   which we found were either inflated due to block-claiming or ineligible meals
                   that were not maintained in adequate storage.

OIG Position       Based on FNS’ response, we were able to reach management decision on
                   Recommendations 1, 2, 3, 4, 6, 8, 9, 10, and 11. Management decision on
                   Recommendations 5 and 7 can be reached once FNS has provided us with the
                   additional information outlined in the report section, OIG Position.




USDA/OIG-A/27099-63-At                                                                     Page iii
Abbreviations Used in This Report


AUP                 Agreed Upon Procedures
CAP                 Corrective Action Plan
CFR                 Code of Federal Regulations
CPA                 Certified Public Accountant
DECAL               Department of Early Care and Learning
FNS                 Food Nutrition Service
FY                  Fiscal Year
OFCO                Office of the Chief Financial Officer
OIG                 Office of Inspector General
PND                 Project New Direction, Inc.
PNO                 Private Non-Profit Organization
PRC                 Parks and Recreation Center
RM                  Restoration Ministries, Inc.
SA                  State Agency
SFSP                Summer Food Service Program
USDA                U.S. Department of Agriculture
YMCA                Young Men’s Christian Association




USDA/OIG-A/27099-63-At                                      Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. FNS and the SA Need to Improve Their Oversight of the SFSP................................. 4

        Finding 1             FNS and the SA Need to Improve Their Oversight of the SFSP ............................ 4
                                 Recommendation 1 .......................................................................................... 8
                                 Recommendation 2 .......................................................................................... 9
                                 Recommendation 3 ........................................................................................ 10
                                 Recommendation 4 ........................................................................................ 10

    Section 2. Sponsors Did Not Comply with SFSP Regulations..................................................... 12

        Finding 2             Two Georgia Sponsors Violated Numerous Program Requirements.................... 12
                                  Recommendation 5 ........................................................................................ 24
                                  Recommendation 6 ........................................................................................ 26
                                  Recommendation 7 ........................................................................................ 27
                                  Recommendation 8 ........................................................................................ 28
                                  Recommendation 9 ........................................................................................ 29
        Finding 3             Sponsors’ Claim Included Questionable Operating and Administrative
                              Costs ...................................................................................................................... 29
                                  Recommendation 10 ...................................................................................... 35
        Finding 4             Sponsor Used SFSP Program Funds for Purposes Unrelated to the Program ...... 36
                                  Recommendation 11 ...................................................................................... 37

Scope and Methodology........................................................................................................................ 38

Exhibit A – Summary of Monetary Results ....................................................................................... 40
Exhibit B – Locations Visited............................................................................................................... 41
Exhibit C – Questioned Costs .............................................................................................................. 42
Exhibit D – Agency Response .............................................................................................................. 47




USDA/OIG-A/27099-63-At                                                                                                                            Page v
Background and Objectives
Background                               The U.S. Department of Agriculture’s (USDA) Food and Nutrition Service
                                         (FNS) administers the Summer Food Service Programs (SFSP) to provide
                                         nutritious meals for children, ages 18 years and younger,8 when school is not
                                         in session. Under the program, free meals that meet Federal nutrition
                                         guidelines are provided to all children at approved SFSP sites. Generally,
                                         sites are located in low-income areas, or serve specific groups of low-income
                                         children (low-income means that half of the children in the area or group are
                                         eligible for free or reduced-price school meals). The FNS Southeast Regional
                                         Office located in Atlanta, Georgia administers the SFSP in the States of
                                         Alabama, Florida, Georgia, Kentucky, Mississippi, North Carolina, South
                                         Carolina, and Tennessee.

                                         Nationwide Administration of State SFSPs

                                         FNS administers the SFSP at the national level. Within each State, the
                                         program is administered by the State Department of Education, an alternate
                                         State-designated agency, or the appropriate FNS Regional Office. For the
                                         State of Georgia, the Georgia Department of Early Care and Learning
                                         (DECAL), Bright from the Start administers the SFSP.

                                        Locally, public or private non-profit organizations (PNO) that want to
                                        “sponsor” the program apply and are approved by the State agency (SA) to
                                        operate the program. These sponsoring organizations sign annual program
                                        agreements with the SA and are responsible for overseeing the program
                                        operations. Sponsors receive Federal reimbursement from the SA to cover
                                        their administrative and operating costs for preparing and serving meals to
                                        eligible children at one or more feeding sites.

                                         As part of overseeing how sponsors operate the program, the SA is
                                         responsible for developing and disseminating State policy for administering
                                         the SFSP; measuring progress in achieving program goals by monitoring
                                         local-level SFSP operations; providing sufficient technical assistance,
                                         training and guidance to sponsors; and establishing a reimbursement system
                                         with appropriate controls. The SA approves which sponsors may participate
                                         in the program.

                                         Sponsors enter into a written agreement with the SA to: (1) manage program
                                         operations at feeding sites, (2) maintain accurate financial and accounting
                                         records, including support for all costs of operating the SFSP, and (3) provide
                                         meals that meet program requirements. By meeting program requirements,
                                         sponsors are eligible to be reimbursed for associated operating and

8
    Person(s) aged 19 years and over with physical or mental disabilities may also be eligible.

USDA/OIG-A/27099-63-At                                                                                           Page 1
                                     administrative costs. Reimbursement is limited to the lesser of the sponsors’
                                     actual costs; or the number of eligible meals served times a predetermined
                                     rate per meal; or costs approved in the sponsors’ budgets (for administrative
                                     costs only). FNS annually establishes per-meal rates for operating and
                                     administrative costs. Sponsors may choose several methods of providing
                                     meals: they may prepare and assemble their own meals or obtain meals from
                                     a school food authority or a food service management company.

                                     In fiscal year (FY) 2005, nationally, 3,776 sponsors served about 116 million
                                     meals at a Federal cost of $260 million. SFSP dollars spent within the FNS
                                     Southeast Region totaled about $57 million. In FY 2006, 3,748 sponsors
                                     served over 116 million meals at a Federal cost of over $251 million.9 SFSP
                                     dollars spent within the FNS Southeast Region in FY 2006 totaled about
                                     $55 million.

                                     Sponsors Participating in Georgia SFSP

                                     In FY 2005, 106 sponsors received over $10 million in Federal funds for
                                     participating in Georgia’s SFSP. These sponsors operated 1,400 feeding sites
                                     and served 4,623,744 meals. In FY 2006, 85 sponsors received over
                                     $9 million in Federal funds, operated 1,316 feeding sites, and served
                                     4,038,920 meals. As part of this audit, we reviewed two of these sponsors—
                                     Project New Direction, Inc., (PND) and Restoration Ministries, Inc. (RM)

                                     PND is a self-preparation10 PNO that has participated in SFSP since
                                     FY 2003. Federal funds totaling $923,913 have been paid to this sponsor
                                     since FY 2003. In addition to the SFSP, PND operated other community
                                     service-related activities, including programs to provide: (1) job readiness
                                     and work ethics training, (2) short term emergency assistance to families in
                                     need, and (3) leadership skills to youth. In FY 2005, PND claimed
                                     144,869 meals as served and received $339,408. In FY 2006, PND claimed
                                     118,650 meals as served and received $231,456. During reviews, the SA
                                     found numerous program violations since FY 2004 including: (1) failure to
                                     maintain documentation for expenses, (2) incorrect reporting of operating and
                                     administrative costs, (3) failure to properly monitor its feeding sites,
                                     (4) inflating the number of meals served, (5) claiming the same number of
                                     meals per serving for an entire month (known as block-claiming),
                                     (6) serving meals that lacked the required meal components, and (7) serving
                                     meals outside of the SA approved times.




9
 Data for FY 2006 was obtained from a FNS automated system generated estimate.
10
  Self-preparation sponsors are sponsors who prepare the meals to be served at each site and do not contract with a food service management company for
unitized meals, with or without milk, or for management services.

USDA/OIG-A/27099-63-At                                                                                                                       Page 2
                                     RM is a vended11 PNO that has participated in SFSP since FY 2000. Federal
                                     funds of $2,053,834 have been paid to this sponsor since FY 2000. In
                                     addition to operating a SFSP, RM operates a number of other community
                                     service-related activities, including a group home for teenage girls, RM
                                     Christian Church, and The Food Bank. In FY 2005, RM claimed
                                     170,177 meals as served and received $346,068. In FY 2006, RM claimed
                                     170,976 meals and received $362,312. Some of the program violations that
                                     FNS and the SA found since FY 2004 included: (1) meal counts were not
                                     being taken at point of service, (2) feeding sites were not monitored,
                                     (3) excess meals were delivered to its sites and sites’ meal counts were not
                                     adjusted accordingly, (4) adequate records of daily meal counts were not
                                     maintained, (5) meals were served at times other than those times approved
                                     by the SA, (6) meal components were not maintained at acceptable
                                     temperatures, and (7) all of the required meal components were not being
                                     served.

Objectives                           The primary objectives of our audit were to evaluate the adequacy of the
                                     SA’s administration of SFSP, and the sponsors’ compliance with SFSP
                                     regulations and policies. Specifically, we evaluated how well the SA
                                     approved sponsor applications, trained and monitored sponsors, and processed
                                     their reimbursements. We also evaluated sponsor compliance with program
                                     requirements.




11
   Vended sponsors are sponsors who purchase unitized meals, with or without milk, from a food service management company which it will serve at its
site(s).

USDA/OIG-A/27099-63-At                                                                                                                      Page 3
Findings and Recommendations
Section 1. FNS and the SA Need to Improve Their Oversight of the SFSP



Finding 1                            FNS and the SA Need to Improve Their Oversight of the SFSP

                                     FNS and the SA need to improve how they oversee sponsors in the Georgia
                                     SFSP, especially sponsors who have already been classified as
                                     “problematic.”12 FNS has delegated the task of overseeing problematic
                                     sponsors to the SA but has not followed up to verify that the SA’s oversight
                                     is adequate. Also, the SA was not following its own policy to terminate
                                     problematic sponsors from the SFSP. Due to this lack of oversight, we found
                                     that in FYs 2005 and 2006, the two problematic sponsors we reviewed
                                     claimed $1.28 million in SFSP funds of which we concluded $215,622 was
                                     unallowable.13

                                     According to Federal regulation, FNS acts on behalf of the USDA in the
                                     administration of the SFSP and SAs enter into written agreements with FNS
                                     for the administration of the program.14 Part of the SA’s responsibility is
                                     performing a review of sponsors and sites to ensure compliance with program
                                     regulations.

                                     We selected for review two PNOs—PND and RM—because they had the
                                     second and third largest PNO reimbursements in FY 2005 for the State of
                                     Georgia. Also, both sponsors had a history of serious deficiencies in their
                                     operations based on reviews conducted by FNS and the SA.

                                     We found that FNS and the SA had not established adequate management
                                     controls over sponsors’ operations. These control weaknesses included:
                                     (1) FNS lacked an effective system for ensuring corrective actions for
                                     program violations found during their reviews had been implemented,
                                     (2) SA allowed these sponsors to participate in the program even though prior
                                     reviews had noted serious deficiencies with the sponsors’ operations and the
                                     agency had not confirmed that corrective actions had been implemented,
                                     and (3) SA lacked an effective system for verifying that sponsors do not
                                     exceed their maximum number of meals.




12
   Title 7, Code of Federal Regulations (CFR), section 225.6.c.2 defines “problematic” as a sponsor who has experienced significant operational problems
in the prior year.
13
   We questioned $250,452 claimed by the two sponsors; however, their August 2006 claims totaling $34,830 were withheld by the SA per OIG
Management Alert recommendations.
14
   7 CFR, section 225.4 (d) (4).

USDA/OIG-A/27099-63-At                                                                                                                         Page 4
                                     FNS Needs To Ensure Corrective Actions for Program Violations Have
                                     Been Implemented

                                     FNS, in coordination with the SA, performs reviews of sponsors classified as
                                     problematic and those sponsors in their second year of operation in the SFSP.
                                     For FYs 2005 and 2006, FNS conducted 132 reviews and forwarded the
                                     results to the SA for follow up to ensure sponsors implemented corrective
                                     actions. FNS delegated the task of overseeing implementation of sponsors’
                                     corrective actions to the SA (Bright from the Start). However, FNS lacks
                                     procedures to followup with the SA to ensure corrective actions were
                                     implemented. FNS conducted a review of one (RM) of the two sponsors the
                                     Office of Inspector General (OIG) reviewed and identified serious
                                     deficiencies; however, FNS did not verify that the deficiencies were
                                     corrected.

                                     Additionally, the SA is required to review sponsors to ensure they are
                                     complying with program regulations.15 When the SA observes violations of
                                     program regulations, it requires the sponsors to take corrective action. If the
                                     SA observes a high level of meal service violations, then the sponsors should
                                     follow up with a specific and immediate corrective action plan (CAP). In
                                     such cases, the SA is either to conduct a followup visit or in some other
                                     manner verify that the specified corrective action has been taken.16

                                     If the SA determines that a sponsor has committed one or more deficiencies,
                                     they will provide the sponsor with a notice of the serious deficiencies and an
                                     opportunity to take corrective action. Failure to fully and permanently correct
                                     the serious deficiencies within the allotted time will result in the SA’s denial
                                     of the sponsor’s application and the disqualification of the sponsor from
                                     future participation in the program.17 For FYs 2005 and 2006, the SA
                                     declared 24 private non-profit sponsors as problematic and 16 sponsors as
                                     seriously deficient.18

                                     We found the following deficiencies from our review of the two sponsors.

                                     Project New Direction, Inc.
                                     The SA and independent certified public accountant’s (CPA) reviews of this
                                     sponsor show a history of serious deficiencies.

                                     An independent CPA report received December 28, 2004, for the period
                                     June 14, 2004, through August 13, 2004, found that the sponsor (1) failed to
                                     maintain documentation for expenses, (2) incorrectly reported operating and

15
   7 CFR, section 225.7 (2).
16
   7 CFR, section 225.11 (f).
17
   DECAL Policy No: SFSP/04-15.
18
   A serious deficient sponsor means a declaration made by the SA for a sponsor who has committed one or more serious deficiencies and has repeated
errors/or findings that are serious in nature.

USDA/OIG-A/27099-63-At                                                                                                                       Page 5
                                   administrative costs, (3) failed to properly monitor its feeding sites, and
                                   (4) incorrectly reported the number of meals it served. The sponsor submitted
                                   a CAP on April 26, 2005, to address the review. The SA found that the
                                   sponsor’s CAP was sufficient and allowed the sponsor to participate in the
                                   FY 2005 SFSP.

                                   The SA conducted its review of the sponsor’s FY 2005 SFSP operations on
                                   July 7, 2005, and performed a subsequent review on August 23, 2005, and
                                   found that the sponsor: (1) claimed the same number of meals per serving for
                                   an entire month (known as block-claiming); (2) served meals that lacked
                                   required components; (3) served meals outside of its approved times;
                                   (4) served meals at an unsuitable site because it lacked the appropriate storage
                                   facilities; (5) submitted incorrect daily meal counts; (6) did not maintain daily
                                   meal count records on site; (7) served adults and claimed these meals for
                                   reimbursement; and (8) allowed adults to remove meals from the premises
                                   and consume them off site. The SA found the sponsor seriously deficient19
                                   and required a program refund of $11,076. This money was withheld from the
                                   sponsor’s July 2005 reimbursement payment. The sponsor and the SA
                                   developed a CAP on August 23, 2005.

                                   Also, the SA received another independent CPA report on December 9, 2005,
                                   for the period May 31, 2005, through August 12, 2005. It found that the
                                   sponsor failed to correctly report operating and administrative costs; resulting
                                   in the sponsor being required to refund $4,725 to the SA.

                                   The SA, on April 5, 2006, declared this sponsor seriously deficient for failure
                                   to respond to the CPA’s findings and to refund the $4,725 owed. The sponsor
                                   responded on April 13, 2006, by submitting a CAP along with a repayment
                                   plan to the SA. Even though the sponsor was still considered seriously
                                   deficient because it had not refunded the $4,725 owed, the SA again approved
                                   the sponsor’s application for the FY 2006 SFSP because the sponsor had
                                   submitted another CAP and repayment plan. Further, on June 9, 2006, the SA
                                   gave the sponsor a $40,000 advance for operating and administrative
                                   expenses. The SA on June 26, 2006, agreed with the sponsor’s CAP and
                                   repayment plan and rescinded its seriously deficient determination. The
                                   sponsor paid the $4,725 resulting from the CPA’s findings to the SA on June
                                   30, 2006. The SA classified PND as a problematic sponsor for the FY 2006
                                   SFSP.

                                   Our review of PND found that it committed the same SFSP violations for
                                   FYs 2005 and 2006. In fact, we found additional SFSP violations in the
                                   sponsor’s FY 2006 operation during our review (we discuss these problems in
                                   Section 2).

19
  7 CFR, section 225.11.c and DECAL Policy No. SFSP/04-15 defines as a sponsor who has committed one or more serious deficiencies and has repeated
errors/or findings that are serious in nature.

USDA/OIG-A/27099-63-At                                                                                                                  Page 6
                                        Restoration Ministries, Inc.

                                        In FYs 2004 and 2005, RM was classified as a problematic sponsor.
                                        However, in FY 2006, the SA classified this sponsor as an experienced
                                        sponsor20 although an FY 2005 FNS review found that the sponsor; (1) was
                                        not monitoring its sites as required, (2) was delivering excess meals to its
                                        sites and was not adjusting sites’ meal counts accordingly, (3) was not
                                        maintaining adequate records of daily meal counts, (4) was not lowering the
                                        meals ordered for one site as suggested by the site supervisor, (5) was serving
                                        meals at times other than those approved by the SA, (6) was not maintaining
                                        food at acceptable temperatures, and (7) was not serving all required food
                                        components with meals.

                                        FNS recommended that the sponsor perform additional site visits to its
                                        feeding sites to ensure future compliance. FNS forwarded the results of its
                                        review to the SA for followup and to ensure that the sponsor’s corrective
                                        actions had been implemented. The SA required RM to develop a CAP. The
                                        sponsor submitted its CAP to the SA which was approved. Because of our
                                        ongoing review, the SA did not conduct a followup visit for the FY 2006
                                        SFSP. However, our review of RM found that many of the problems noted in
                                        FY 2005 continued into FY 2006 (we discuss these problems in section 2).

                                        The SA has procedures in place to remove sponsors from the program if it
                                        concludes they are “seriously deficient.” The agency defines serious
                                        deficiencies as (1) submitting false information to the SA, (2) failing to
                                        maintain adequate records, (3) failing to adjust meal orders to conform to the
                                        number of participants, and (4) claiming reimbursement for meals not served
                                        to program participants.21 According to these definitions, PND and RM was
                                        “seriously deficient” in FYs 2005 and 2006. In fact, as we discuss in detail in
                                        Section 2, we found that both sponsors had multiple violations in all four
                                        categories. Given these deficiencies, we conclude that the SA should take
                                        action to enforce its procedures and remove PND and RM from the program.

                                         The SA Needs To Improve Controls for Preventing Sponsors from
                                         Claiming More Than Their Approved Maximum Number of Meals

                                         The SA lacks controls for verifying that sponsors do not claim more meals
                                         than they are allowed to serve at any given site. This occurred because the
                                         agency allows sponsors to submit a monthly consolidation of the number of
                                         meals they served at all of their sites. Therefore, the SA does not have the
                                         detailed information by site, to evaluate meals claimed to the number allowed
                                         to be served at the site. Thus, sponsors were able to claim reimbursement for
                                         more meals than they were allowed to serve. As we discuss in Finding 2, we

20
     7 CFR, section 225,2 defines as a sponsor who has participated in the program in the prior year with no adverse findings.
21
     7 CFR, section 225.11.c and DECAL Policy No. SFSP/04-15.

USDA/OIG-A/27099-63-At                                                                                                           Page 7
                                   found that the two sponsors claimed 44,116 meals more than the maximum
                                   allowed at their sites.

                                   The SA approves each site to serve no more children than its facilities can
                                   accommodate.22 The sponsor may seek an upward adjustment in the approved
                                   level for its sites by requesting a site review or by providing the SA with
                                   evidence that attendance exceeds the sites’ approved levels.23 Sponsors may
                                   not claim reimbursement for meals served in excess of the site’s approved
                                   level of meal service.24

                                   The SA’s web-based system for reimbursing sponsors did not include a
                                   control for comparing the number of meals sponsors claim at each site with
                                   the maximum number of meals allowed. Sponsors key in three numbers each
                                   month: the combined total number of meals they claim for (1) breakfast,
                                   (2) snack, and (3) lunch from all of their sites. Allowing the sponsors to
                                   combine the number of meals served for all of their sites means that the SA
                                   cannot compare the actual number served with the maximum number
                                   allowable at any particular site.

                                   The SA should take steps to correct this control weakness. Requiring
                                   sponsors to submit the number of meals they serve at each site and designing
                                   edit checks in its web-based system to compare these numbers with the
                                   maximum number of meals allowed will give the SA improved control over
                                   meal reimbursements.

                                   Overall, FNS and the SA could significantly improve their oversight of how
                                   sponsors operate the program, by ensuring that sponsors correct deficiencies
                                   identified during reviews and improving its controls for verifying that
                                   sponsors do not exceed their maximum meals allowed at any given site.

Recommendation 1

                                   Establish controls to follow up with the SA on all of its reviews of sponsors
                                   to ensure corrective actions have been implemented.

                                   Agency Response. In its March 28, 2008, response, the FNS stated:

                                       FNS concurs with this recommendation. In FY 2006, FNS
                                       [Southeast Regional Office] implemented new SA oversight
                                       procedures including oversight of Georgia DECAL to ensure that
                                       sponsors take appropriate corrective actions or that the sponsors
                                       are terminated. * * *


22
   7 CFR, section 225.6.d.1.iii.
23
   7 CFR, section 225.6.d.2.iii.
24
   7 CFR, section 225.9.f.

USDA/OIG-A/27099-63-At                                                                                     Page 8
                   OIG Position. We accept FNS’ management decision on this
                   recommendation. To achieve final action, FNS needs to inform the Office of
                   the Chief Financial Officer (OCFO) that the new procedures have been
                   implemented.

Recommendation 2

                   Instruct the SA to conduct a followup review of problematic and seriously
                   deficient sponsors and ensures that sufficient corrective actions have been
                   implemented or terminate these sponsors.

                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with this recommendation. In 2006, GA DECAL
                         revised its [seriously deficient] SD procedures and shortened the
                         timeframe for terminating problem sponsors. The revision
                         eliminated the Intent to Terminate step and states that the SD
                         rescission is contingent upon a successful CAP and adherence to
                         a repayment plan, if required. * * * Additionally, in May 2007,
                         [GA] DECAL entered into a contract with CN Resource, LLC.
                         This contract provides additional resources to [GA] DECAL so
                         that problematic sponsors are reviewed earlier in their program
                         operation and, if needed, follow up reviews are conducted during
                         the same program year. CN Resource submits reports to [GA]
                         DECAL within 5 days of the completion of a review. * * * If the
                         sponsors do not provide appropriate corrective actions, then
                         procedures are implemented to terminate these sponsors.

                         Also, during the comprehensive [Management Evaluation] ME of
                         GA DECAL in May 2008, FNS will further evaluate [GA]
                         DECAL’s review and closure process to ensure that appropriate
                         corrective actions are taken or the sponsors are terminated.

                   OIG Position. We accept FNS’ management decision on this
                   recommendation. To achieve final action, FNS needs to inform OCFO that
                   the revised SA procedures have been implemented and, when completed,
                   advise OCFO of the results of its comprehensive evaluation review of GA
                   DECAL scheduled for May 2008.




USDA/OIG-A/27099-63-At                                                                       Page 9
Recommendation 3

                   Instruct the SA to evaluate the conditions disclosed during this audit and
                   determine if the two sponsors are seriously deficient in their operations of the
                   SFSP and warrant removal from the program.

                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with this recommendation. SFSP regulations and
                         7 CFR Part 225.11(c) prohibits a SA from entering into an
                         agreement with any institution which has been found seriously
                         deficient in its operation of any child nutrition program. The
                         regulation also requires a sponsor to demonstrate, to the
                         satisfaction of the SA, appropriate corrective action to prevent
                         recurrence of the serious deficiencies prior to being allowed to
                         participate in the SFSP after being found seriously deficient
                         and/or terminated.

                         GA DECAL is aware of these requirements and neither of these
                         sponsors is currently participating in SFSP. One sponsor applied
                         to participate in the SFSP in 2007 and was denied participation
                         by GA DECAL due to the findings identified in this audit. If
                         these sponsors should reapply for future participation in the
                         SFSP, FNS will work with GA DECAL to ensure the deficiencies
                         have been permanently corrected and follow through with the
                         prescribed regulatory process. If corrective action is not
                         sufficient, GA DECAL will continue to deny participation in the
                         SFSP.

                   OIG Position.        We    accept   FNS’    management      decision   on this
                   recommendation.

Recommendation 4

                   Instruct the SA to establish controls in its web-based system to identify meal
                   counts that exceed the approved levels multiplied by days of operation and
                   followup on meal counts that exceed this control.

                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with this recommendation. In May 2007 GA
                         DECAL implemented a web-based site-level claiming system.
                         GA DECAL’s claim system contains site-level data for approval
                         of meal count levels and days of operation. GA DECAL’s current
                         claim system has a business rule that will reject a sponsor’s claim

USDA/OIG-A/27099-63-At                                                                     Page 10
                         if the monthly total for a site exceeds the maximum number of
                         meals approved for the month.

                   OIG Position. We concur with FNS’ management decision for this
                   recommendation. To achieve final action, FNS needs to inform OCFO that
                   the SA has implemented its new web-based site-level claiming system.




USDA/OIG-A/27099-63-At                                                               Page 11
Section 2. Sponsors Did Not Comply with SFSP Regulations

                                PND and RM claimed reimbursement for excessive and questionable
                                expenses by inflating their meal counts and claiming greater expenses than
                                their documentation could support. We recalculated the sponsors FY 2005
                                and 2006 SFSP claims and found questionable reimbursements totaling
                                $215,622 (17 percent) of the $1.28 million in reimbursements received.

                                The sponsors’ reimbursement for operational and administrative expenses is
                                limited to the lesser of the sponsors’ actual costs or the number of eligible
                                meals served times a pre-determined rate for each meal type (see exhibit C).25

                                We determined that PND and RM claimed and received $98,396 and
                                $117,226 respectively in FYs 2005 and 2006 SFSP funds for which they were
                                not entitled. See Exhibit C for details.

                                On September 20, 2006, OIG issued to FNS a Management Alert to inform
                                FNS of these sponsors’ violations of SFSP regulations and to recommend that
                                the SA withhold the sponsors August 2006 SFSP payments. FNS agreed and
                                instructed the SA to withhold the sponsors’ August 2006 claims totaling
                                $34,830. The program violations committed by the two sponsors and
                                described in Findings 2 and 3 include the sponsors’ August 2006 claim.
                                Therefore, we are making separate recommendations to disallow the
                                sponsors’ August 2006 claims (PND - $14,369 and RM - $20,461).

                                In this section, we describe (1) the methods the two sponsors used to inflate
                                their meal counts (Finding 2) and (2) the questionable and unsupported
                                operating and administrative expenses (Finding 3). The sponsors received the
                                lesser of meals served times a pre-determined rate or actual operating and
                                administrative expenses.




Finding 2                       Two    Georgia        Sponsors       Violated      Numerous        Program
                                Requirements

                                The two sponsors we reviewed—PND and RM—inflated their meal counts
                                and claimed excessive operating and administrative expenses. The SA lacks
                                the necessary controls to ensure that sponsors are submitting accurate meal
                                counts and operating expenses. Consequently, due to these weaknesses in the
                                SA’s controls, the two sponsors received $215,622 in questionable
                                reimbursements for FYs 2005 and 2006.



25
     7 CFR, section 225.9.d.7

USDA/OIG-A/27099-63-At                                                                               Page 12
                                   When sponsors are accepted into the program, they agree to comply with all
                                   program regulations. In particular, they agree to submit accurate and true
                                   claims to the SA for reimbursement.26

                                   Our review disclosed that PND and RM inflated their meal counts by:
                                   (1) claiming more meals than we observed during our site visits, (2) block-
                                   claiming meals, (3) claiming reimbursement for more than the maximum
                                   number of meals allowed for a given site, (4) claiming more than 300 meals
                                   per serving without a waiver, (5) claiming reimbursement for incomplete
                                   meals, (6) operating more than the maximum number of sites, and
                                   (7) claiming reimbursement for meals for feeding sites that did not have
                                   adequate storage facilities. See tables 1 and 2 for the number of meals by type
                                   that were over-claimed for each sponsor.




                                                                         Table 1
                         Project New Direction, Inc. – Summer Food Service Program Meals Served
                                   Per         Per                    Per        Per
                                 Sponsor      OIG                   Sponsor     OIG
                                 Breakfast Breakfast Over-Claim Lunch          Lunch   Over-Claim
                       FY 2005     45,684       36,086       9,598    99,185    89,259       9,926
                       FY 2006     36,299       24,221      12,078    82,351    55,768      26,583
                       Totals      81,983       60,307      21,676 181,536     145,027      36,509
                     Note: See Exhibit C, page 5 for the number of meals by type per program violation.




                                                                             Table 2
                         Restoration Ministries Inc. - Summer Food Service Program Meals Served27
                                    Per          Per                   Per       Per
                                  Sponsor        OIG                 Sponsor     OIG
                                       Breakfast          Breakfast         Over-Claim            Lunch           Lunch          Over-Claim
                     FY 2005               44,799              42,746              2,053          93,151          86,672                6,479
                     FY 2006               57,884              43,236             14,648          92,430          61,377               31,053
                     Totals               102,683              85,982             16,701         185,581         148,049               37,532
                     Note: See Exhibit C, page 5 for the number of meals by type per program violation.




26
   SFSP Sponsor/DECAL Agreement-Updates dated April 14, 2006, Agreement for Participation in the SFSP, Federal FY 2006; Sponsor Responsibilities
No. 11.
27
   Table 2 does not include over-claims for snacks, which was 10,494 for FY 2005 and 444 for FY 2006.

USDA/OIG-A/27099-63-At                                                                                                                Page 13
                                     The following conditions describe the methods the sponsors used to inflate
                                     their meal counts.

                                     Sponsors Claimed More Meals than We Observed During Our Site
                                     Visits

                                     During the summer of 2006, we made site visits to 16 of the 2 sponsors’
                                     56 feeding sites to observe their operations and to verify meal counts. When
                                     we reviewed the forms the sponsors used to claim reimbursements for the
                                     sites we visited, we found that, for the days we visited, the 2 sponsors inflated
                                     their meal counts by 545 meals for 8 of the 16 visited sites. RM inflated their
                                     meal counts by 100 breakfast and 359 lunches and PND inflated their meal
                                     counts by 37 breakfasts and 49 lunches.

                                     For instance, at 1 site operated by PND we observed 33 breakfast meals
                                     being served. However, we found that the sponsor claimed that 70 breakfast
                                     meals were served. The sponsor also inflated the number of meals served for
                                     lunch at this site. We observed 60 meals served but the sponsor claimed 100.

                                     When we questioned the sponsor concerning discrepancies between the site
                                     supervisor’s count and the sponsor’s claim for reimbursement, the sponsor
                                     claimed that the site staff did not accurately complete the meal count forms.
                                     The sponsor’s director could not, however, provide us with any evidence
                                     supporting the differences in the number of meals claimed.

                                     Sponsors Block-Claiming Meals

                                     The two sponsors reviewed would often “block-claim” their meal counts.
                                     Block-claiming is the practice of claiming the same number and type of
                                     meals served every day for three or more days, instead of actually counting
                                     the number of children served. Block-claiming is considered sufficient
                                     grounds for a sponsor’s termination from SFSP.28

                                     For the sponsors’ feeding sites we visited, we found evidence of block-
                                     claiming since the meal counts were higher, 5 days prior to our visit and
                                     5 days after our visit compared to the day of our visit. The sponsors were
                                     claiming the same number of meals served every day for three or more days.
                                     We reviewed the meals claimed for those sites with evidence of block-
                                     claiming for the entire FY 2006 SFSP and we concluded29 that PND block-
                                     claimed 9,812 meals (4,872 breakfasts and 4,940 lunches) and RM block-
                                     claimed 4,485 meals (2,710 breakfasts, 1,545 lunches, and 230 snacks) (see
                                     tables 3 and 4 below).


28
   DECAL Policy Number SFSP/04-15, the definition of a “serious deficiency” to disqualify a sponsor from the program includes excessive and/or repeat
instances of block-claiming at a significant proportion of the sponsor’s sites.
29
   Based on OIG site visits.

USDA/OIG-A/27099-63-At                                                                                                                    Page 14
                                                                        Table 3
                                                Project New Direction, Inc. – Block-Claimed Meals for
                                                                       FY 2006
                                                                                      Breakfast    Lunch
                                         College Park Recreation (Brady)                                   2,203

                                         East Point Recreation (Jefferson)                     1,527

                                         Martel Homes                                          3,345       2,737

                                         TOTALS                                                4,872       4,940


                                                                             Table 4
                                                Restoration Ministries, Inc. – Block-Claimed Meals for
                                                                        FY 2006
                                                                               Breakfast    Lunch      Snack
                                         Southside Parks and Recreation
                                         Center (PRC)/Village Keepers                        237        230
                                         Step of Faith                                       666
                                         Snapfinger Elementary School               979
                                         New Life Christian                                  642
                                         Hapeville Recreation                       487
                                         Youth Under Construction                 1,244
                                         TOTALS                                        2,710       1,545      230


                                     Sponsors Claimed Reimbursement for More than the Maximum
                                     Number of Meals Allowed at Their Sites

                                     PND and RM claimed reimbursement for more than the maximum approved
                                     number of meals at their sites. This occurred because the SA lacked controls
                                     to compare the actual number of meals claimed at a site with the maximum
                                     number of meals approved for that site (see Finding 1). Due to this control
                                     weakness, PND and RM claimed 44,116 more meals than the maximum
                                     approved number.

                                     Program guidelines require that a site should not serve more than the number
                                     of children for which its facilities are adequate. The approved maximum
                                     number of meals to be served under the program is to be established by the
                                     SA during the site’s application process.30

30
     7 CFR, section 225.6.d.1.iii.

USDA/OIG-A/27099-63-At                                                                                      Page 15
                   By comparing sponsors’ claims for reimbursement with the maximum
                   number of meals approved at their sites, we found that both sponsors
                   exceeded their maximum number of approved meals in FYs 2005 and 2006:

                         •     PND claimed 15,084 (7,378 breakfasts and 7,706 lunches) (FY 2005)
                               and 3,512 (265 breakfasts and 3,247 lunches) (FY 2006) more meals
                               than the maximum approved number (see table 5).

                         •     RM claimed 19,026 (2,053 breakfasts, 6,479 lunches, and
                               10,494 snacks) (FY 2005) and 6,494 (2,980 breakfasts, 3,506 lunches,
                               and 8 snacks) (FY 2006) more meals than the maximum approved
                               number (see table 6).




                                                         Table 5

                             PND Claiming More Meals Than Maximum Allowed For FYs 2005
                                                      and 2006
                                                         2006              2005
                             Meal Type Disallowed
                                                    Breakfast      Lunch        Breakfast   Lunch
                         Agape Community Center             0               0       1,420     1,434
                         Big Miller Grove                 50               84          62       124
                         Camp of Champions                  0               0         148         0
                         Chapel Run                         0               0           0        26
                         College Park Recreation
                         (Brady)                           0             0            603       802
                         Eagles Run                        0             0              0         1
                         Destiny Christian Center         22             0              0         0
                         Global All-Stars                  0         2,968            392       900
                         Hidden Cove                       0             0              0         1
                         Martel Homes                    193           185          2,599         0
                         Precious Cargo                    0            10            100       108
                         The Marquise                      0             0              0     1,737
                         New Piny Grove                    0             0             10         0
                         Allen Wilson (#1)                 0             0              0       125
                         Riverwood Apartments              0             0              0        35
                         Riverwood Club                    0             0              0     1,299
                         Robbins Crest                     0             0              0     1,075
                         Wheat Street Gardens              0             0          2,044        39
                         TOTALS                          265         3,247          7,378     7,706




USDA/OIG-A/27099-63-At                                                                           Page 16
                                                                                Table 6

                                          RM Claiming More Meals Than Maximum Allowed For FYs 2005 and 2006
                                                                      2006                   2005
                                          Meal Type Disallowed
                                                                   Breakfast   Lunch   Snack   Breakfast   Lunch     Snack
                                         Atherton Elementary            180      360       0           0       0         0
                                         Breman Parks and
                                         Recreation                        0       0       0          40      46         0
                                         Camp Cornerstone              2,002   1,999       0       1,813   1,912         0
                                         Celebration Church                0     234       0           0   2,104       206
                                         Forest Park Recreation
                                         Center                           0        3       0          0        0         0
                                         Showbiz Summer Camp            798      910       0          0        0         0
                                         Southside PRC/Village
                                         Keepers                          0        0       8          0    2,020     2,020
                                         Etheridge Court/Rollins
                                         Bend                             0        0       0          0        0     7,892
                                         Paradise
                                         Apartments/Feed Kid
                                         Summer Food                      0        0       0          0      165       376
                                         Step of Faith                    0        0       0        200      198         0
                                         West Carrollton
                                         Parks/Recreation                  0       0       0           0      34         0
                                         TOTALS                        2,980   3,506       8       2,053   6,479    10,494



                                     Sponsors Claimed Reimbursement for More Than 300 Meals Per
                                     Serving Without Waiver

                                     Waivers are required if a sponsor wishes to serve more than 300 children at a
                                     single site, yet we found that RM was claiming and receiving reimbursement
                                     for 600 meals per serving without a waiver from either the SA or FNS.
                                     Again, ultimately, this occurred because the SA lacks controls to compare the
                                     number of meals claimed with the number approved for that site (see Finding
                                     1). Due to this control weakness, RM claimed 16,348 (7,688 breakfast and
                                     8,660 lunches) more meals than approved for the site for FY 2006 SFSP.

                                     PNO sponsors may not serve more than 300 children at any approved meal
                                     service at any single site, unless there is a waiver granted by the SA. The
                                     State may only grant such a waiver for up to 500 children.31 Only the FNS
                                     Regional Office may approve a waiver to allow a PNO sponsor to serve more
                                     than 500 children at any one site.32

                                     RM was approved to serve no more than 300 meals per serving breakfast and
                                     lunch for its South Dekalb Young Men’s Christian Association (YMCA)
                                     feeding site. However, the sponsor claimed 600 meals per serving for
31
     7 CFR, section 225.14 (d)(6)(i)(A) and (B).
32
     USDA, FNS 2006 Administrative Guidance for Sponsors.

USDA/OIG-A/27099-63-At                                                                                             Page 17
                                  breakfast and lunch at that site from June 12 to July 14, 2006. The sponsor
                                  submitted a request for a waiver to the SA on July 14, 2006, seeking
                                  permission to serve 600 meals per serving. The SA conducted a site review
                                  on July 17, 2006, and observed that attendance was lower then the sponsor’s
                                  request. The SA observed 377 meals served for lunch during their visit
                                  although the sponsor claimed 600 meals for this date. SA officials noted that
                                  because of our on-going review, they did not take any action. In addition, we
                                  observed 250 and 196 meals served for lunch, respectively, during our July
                                  20, 2006, and August 1, 2006, site visits. The SA denied the sponsor’s waiver
                                  request on July 31, 2006, and capped their maximum allowable amount at
                                  380.

                                  Even after the waiver request was denied, the sponsor continued to claim
                                  more than the maximum number of meals approved for this site. The sponsor
                                  continued to claim more than 380 meals at the site, and claimed up to
                                  400 lunches per serving.

                                  Sponsor Claimed Reimbursement for Incomplete Meals

                                  FNS regulations require that meals served to children as part of SFSP include
                                  certain nutritious foods, including milk; however, during the month of
                                  July 2006, RM claimed reimbursements for 875 (150 breakfasts, 519 lunches,
                                  and 206 snacks) meals that did not include the required meal components for
                                  the site visit days we observed. This occurred because a vendor failed to
                                  deliver milk to three of the sponsor’s feeding sites.

                                  FNS provides guidelines to sponsors defining what items must be included in
                                  order for a meal to be considered reimbursable. For a breakfast or lunch to
                                  qualify as a reimbursable meal, it must contain one serving of milk, one or
                                  more servings of vegetables or fruits, and one serving of grain or bread.33

                                  On July 31, 2006, three of RM sites—Southside PRC/Village Keeper,
                                  Summit Family YMCA, and South Dekalb YMCA—did not receive the milk
                                  they needed to serve complete meals. A vendor had informed the sponsor that
                                  he would be unable to deliver milk to these sites. The vendor along with the
                                  site supervisors informed us that milk had not been delivered to their sites.
                                  Although the sponsor stated that she knew she should not have claimed
                                  reimbursement for these incomplete meals, she decided to do so anyway, and
                                  would give no further explanation.




33
     7 CFR, section 225.16 (d).

USDA/OIG-A/27099-63-At                                                                                 Page 18
                                        Sponsors Claimed and Received Reimbursement for Meals Served at
                                        More Than 25 Sites

                                        PND and RM both claimed and received reimbursement for meals served at
                                        more than 25 sites for the 2006 SFSP. This occurred for two reasons:
                                        (1) PND operated 4 additional sites that were not approved by the SA, and
                                        (2) officials at the SA approved 1 additional site for RM and one for PND
                                        even though the sponsors would exceed the maximum 25 sites they were
                                        allowed to operate. As a result, these two sponsors were able to claim 26,890
                                        ineligible meals.

                                        According to program guidelines, private non-profit sponsors are to serve
                                        meals at no more than 25 sites.34 We found, however, that these two sponsors
                                        claimed meals being served at six additional sites:

                                           •   PND was operating 25 approved sites, but claimed meals from
                                               another 5 sites, 1 additional site approved by the SA and 4 the SA was
                                               unaware of and had not approved. When we asked SA officials why
                                               they had approved this additional site, they stated this occurred due to
                                               an administrative oversight. They agreed that this additional site
                                               should not have been approved. During our site visits we identified
                                               that satellite sites were being used to serve children. At one of the
                                               satellite sites (East Point Recreation Center), the site supervisor stated
                                               that the sponsor delivers the lunch meals to the SA approved site and
                                               the other satellite site personnel are required to come over and pick up
                                               their lunches. For these 5 additional sites, PND claimed 4,440 (2,220
                                               breakfasts and 2,220 lunches) (FY 2005) and 20,410 (6,904 breakfasts
                                               and 13,506 lunches) (FY 2006) ineligible meals (see table 7).

                                           •   RM also operated 1 additional site beyond the 25 it was approved to
                                               manage. When we asked SA officials why they had approved this
                                               additional site, they stated this occurred due to an administrative
                                               oversight. They agreed that this additional site should not have been
                                               approved. Due to this oversight, RM was able to claim 2,040 (1,020
                                               breakfasts and 1,020 lunches) additional meals (see table 8).




34
     7 CFR, section 225.14 (d)(6)(A).

USDA/OIG-A/27099-63-At                                                                                          Page 19
                                        The following tables show the meals claimed by the two sponsors for
                                        unapproved feeding sites.


                                                                                 Table 7
                                                                  PND Operating More Than 25 Sites for
                                                                          FYs 2005 & 2006
                                                                                     2006                  2005
                                                  Meal Type Disallowed
                                                                             Breakfast    Lunch     Breakfast   Lunch
                                                Community in Unity               1,696      2,225          0         0
                                                East Point Recreation
                                                Center (Sumner)                      0      1,066          0        0
                                                East Point Recreation
                                                Center (Green)                       0      3,542          0        0
                                                College Park Recreation
                                                (Conley)                         5,208      5,557      2,220     2,220
                                                Allen Wilson (#2)                    0      1,116
                                                TOTAL                            6,904     13,506      2,220     2,220



                                                                               Table 8
                                                                  RM Operating More Than 25 Sites for
                                                                          FYs 2005 & 2006
                                                                                    2006                   2005
                                                 Meal Type Disallowed
                                                                             Breakfast   Lunch      Breakfast   Lunch

                                                Beyond the Bell                 1,020      1,020           0        0

                                                TOTAL                            1,020     1,020           0        0



                                        Sponsors Did Not Ensure That Meals Were Transported and Stored At
                                        Required Temperatures

                                        We observed during our site visits that PND and RM did not ensure that two
                                        feeding sites had adequate facilities for storing or holding meals. The
                                        sponsors were aware of the lack of adequate storage facilities, but did not
                                        take corrective action to address the problems. As a result, the two sponsors
                                        served 20,285 lunch meals in FY 2006 that should not have been claimed.

                                        FNS requires that sponsors ensure adequate facilities are available for storing
                                        food or holding meals.35

                                        Feeding sites operated by both sponsors served lunches that had been
                                        delivered with the day’s breakfasts and had not been properly refrigerated.

35
     7 CFR, section 225.16 (a) and 16 (c)(5).

USDA/OIG-A/27099-63-At                                                                                             Page 20
                   During our site visits to South Dekalb YMCA (a RM site) on July 20, 2006,
                   and August 1, 2006, we observed the sponsor delivering meals to the site in
                   an un-refrigerated truck and storage containers without cooling devices.

                   The meals were delivered at approximately 7:30 a.m. and stored in an open
                   area for more than 4 hours for the lunch meal and served to the children. This
                   site has no facilities to refrigerate meals being delivered. The meals remained
                   without ice on the floor for over 4 hours after breakfast had been served
                   (see photo 1 for illustration). As a result, this sponsor claimed 15,444 lunch
                   meals that should have not been served to children.

                   The SA also visited the South Dekalb YMCA feeding site on July 17, 2006,
                   and noted that the site lacked adequate refrigeration but did nothing to bring
                   the site into compliance with SFSP regulations. SA officials stated that they
                   were awaiting the completion of our review and receipt of our report before
                   they took any actions.




USDA/OIG-A/27099-63-At                                                                   Page 21
                                                  Photo 1
                                               Source: OIG
                             Meals Without Adequate Refrigeration for Over 4 Hours –
                                                    8/1/2006




                    In addition, we found that Global All-Stars (a PND site) did not have
                    adequate facilities to refrigerate meals delivered. Meals were found in a non-
                    operational refrigerator that had a broken door that remained opened
                    throughout our site visit. Also, we found leftover milk and juices on the floor
                    prior to and after meals were served. We notified the sponsor of the serious
                    deficiencies found at this site. The sponsor stated that this did not surprise
                    her because of prior history of problems with this site and she would notify
                    the site supervisor of these program violations. As a result this sponsor
                    claimed 4,841 lunch meals that should have not been served to children (see
                    photo 2 below for illustration).




USDA/OIG-A/27099-63-At                                                                    Page 22
                                                   Photo 2
                                                Source: OIG
                             Global All-Stars During Lunch Meal Service 8/1/2006




                   We concluded that 20,285 meals served by these two sponsors for the two
                   sites did not meet FNS’ requirements for appropriate transportation, storage,
                   and preparation. The SA should disallow the meals claimed for these two
                   sites.

                   In conclusion, the two sponsors claimed and received questionable
                   reimbursement of $215,622 ($98,396 for PND and $117,226 for RM) in
                   FY 2005 and 2006 SFSP funds for which they were not entitled. In addition,
                   the program violations by the two sponsors include their August 2006 claim
                   of $34,830 ($14,369 for PND and $20,461 for RM) that was withheld by the
                   SA based on OIG Management Alert recommendations. We recalculated the
                   sponsors’ FY 2005 and 2006 SFSP reimbursement claims by reducing the
                   number of meals by type and unsupported operating and administrative
                   expenses (see Exhibit C for more details).




USDA/OIG-A/27099-63-At                                                                  Page 23
Recommendation 5

                   Instruct the SA to recover $98,396 in questioned costs from Project New
                   Direction, Inc.

                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with the audit finding and directing the SA to
                         recover questioned costs from Project New Direction, Inc. After
                         reviewing the OIG audit work papers supporting this finding, we
                         will direct GA DECAL to recover $59,715 from the sponsor for
                         the reasons discussed below.

                         Block-claiming of meals by program sponsors is a serious
                         problem which may indicate misreporting of meal participation.
                         Submitting false information, including claiming program
                         payments for meals not served to participating children, is
                         grounds for disqualifying a sponsor from the Program. This
                         finding, among others, is a contributory factor in denying future
                         participation in the SFSP to Project New Direction, Inc., (unless
                         it can be demonstrated that the many deficiencies cited have been
                         permanently corrected).

                         It has been the longstanding position of FNS, and one fully
                         supported by our Office of general Counsel, to establish (or
                         require State agencies to establish) claims based on meals that are
                         actually documented on-site as improperly claimed or served. As
                         you are aware, one of the guiding principles of Federal debt
                         recognition is that the full amount billed should be both
                         supportable and legally enforceable. In general, it is FNS policy
                         not to establish claims based on statistical projection or
                         extrapolation of findings. Claims are only based on the amounts
                         that can be fully supported and documented during actual site
                         visits.

                         Regarding the service of meals that were not held or transported
                         at proper temperatures, we can only concur with disallowing
                         those meals that were actually observed by the auditors as being
                         served and subsequently claimed by the sponsor(s). There was no
                         documentation in the audit work papers to indicated that meals
                         were actually sampled by the auditors (i.e., temperatures were
                         taken) to determine if they tested outside the prescribed criteria
                         for an allowable meal. Without such testing and documentation,
                         it can not be determined with certainty that meals served were
                         unallowable. We will work the GA DECAL to ensure that all
                         sponsors participating in the SFSP are aware of and fully
USDA/OIG-A/27099-63-At                                                                     Page 24
                         implement procedures to store and transport meals according to
                         Program requirements. The SA will remind all potential SFSP
                         sponsors of these requirements by June 1, 2008.

                   OIG Position. We concur with FNS’ decision to direct the SA to recover
                   questioned costs from the sponsor for: (1) claiming more meals than the
                   number we observed during our site visits, (2) claiming reimbursement for
                   more than the maximum number of meals allowed for a site, (3) claiming
                   more than 300 meals per serving without a waiver, and (4) operating more
                   than the maximum number of sites allowed for a non-profit sponsor.
                   However, before we can concur with the amount FNS agreed to recover
                   ($59,715), FNS needs to provide for our review and concurrence
                   documentation supporting FNS’ calculations for these questioned costs.
                   Also, we request that FNS reconsider its position on block-claiming and the
                   inadequate storage of meals served to program participants for the following
                   reasons.

                   Both FNS and the SA had prior knowledge of these sponsors’ serious
                   operating deficiencies, yet did not establish adequate controls to ensure
                   compliance with program regulations. The SA visited PND during its 2005
                   operating year and found many serious deficiencies, including (1) claiming
                   of the same number of meals per serving (block-claiming), (2) improper
                   storage at site for meals, and (3) incorrect daily meal counts. FNS visited RM
                   in 2005 and found similar deficiencies, including (1) delivery of excess
                   meals to its sites, (2) inaccurate records of daily meal counts, and (3) not
                   maintaining food at acceptable temperatures.

                   SA policy prohibits block-claiming and Federal regulations 7 CFR
                   225.15(c)(1) states, in part, that sponsors shall maintain accurate records
                   which justify all costs and meals claimed. Failure to maintain such records
                   may be grounds for denial of reimbursement for meals served and/or
                   administrative costs claimed during the period covered by the records in
                   question. Our review of the records maintained by the sponsor to support
                   meal counts for the days prior to our visit, the day of our visits, and the
                   subsequent days after our visit, disclosed that the sponsor could not support
                   the number of meals claimed.

                   Regarding food storage, it is the sponsor’s responsibility to ensure that each
                   of its sites has adequate facilities to store meals if the meals are delivered
                   1-hour or more prior to meal service. We found during our visit to one of
                   PND’s feeding sites (Global All-Stars) that the facility had a non-operational
                   refrigerator; the site supervisor informed us that the refrigerator was non-
                   operational the entire summer. Meals were delivered to this site, however,
                   more than 1-hour prior to meal service. For the other sponsor, RM, one site
                   we visited (South Dekalb YMCA) did not have a refrigerator to store meals.
                   We also observed meals being delivered to this site more than 1-hour prior to
USDA/OIG-A/27099-63-At                                                                   Page 25
                   meal service. Furthermore, the SA also reported that the site did not have
                   refrigeration, yet no corrective action was taken to ensure meals were
                   properly stored prior to being served to children. The South Dekalb YMCA,
                   in its application for the program, stated that it did not have refrigeration to
                   store meals; the application was approved by both the sponsor and the SA.

                   The conditions we observed on the days of our site visits, were not
                   anomalies. Meal delivery receipts for the entire 2006 summer program show
                   that lunch meals were delivered to both feeding sites more than 1-hour prior
                   to the approved meal serving period. Those receipts showed that both
                   breakfast and lunch meals were delivered about 7:30 a.m., however, lunch
                   was not served until 11:30 a.m.

                   Federal regulations 7 CFR 225.16(c)(5) states, in part, that meals which are
                   not prepared at the food service site shall be delivered no earlier than 1-hour
                   prior to the beginning of the meal service (unless the site has adequate
                   facilities for holding hot or cold meals within the temperatures required by
                   State or local health regulations) and no later than the beginning of the meal
                   service.

                   FNS advises that recovery of payments to sponsors for excessive meal claims
                   is limited to amounts that can be fully supported and documented during
                   actual site visits (emphasis added). It is not realistic to have an OIG auditor,
                   FNS official, or a SA employee present at all sponsors’ feeding sites for the
                   entire summer program as the only means to enforce program integrity.
                   Therefore, to reach management decision, it is critical that FNS establish
                   compensating controls when there are indications of serious deficiencies
                   noted during site visits. Also, FNS needs to reconsider its determination of
                   the amount of questioned costs associated with block-claiming and improper
                   food storage and instruct the SA to bill PND for the disallowed costs. A copy
                   of the SA’s bill should be provided to us, along with the estimated date for
                   recovery or resolution of the debt.

                   It is critical that controls be in place to detect and prevent block-claiming
                   because, beginning with the 2008 SFSP, all States will implement the
                   simplified SFSP. Under the simplified SFSP, sponsors’ reimbursements will
                   be based upon their maximum claimed meals, times rates, without regard to
                   actual operating and administrative costs. Thus, there will be an increased
                   incentive for sponsors to inflate the number of meals reported as served.

Recommendation 6

                   Instruct the SA to disallow the $14,369 in questioned costs from Project New
                   Direction, Inc., that was withheld from their August 2006 claim.



USDA/OIG-A/27099-63-At                                                                     Page 26
                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with this recommendation. Based upon the
                         Management Alert issued by OIG on September 25, 2006, GA
                         DECAL denied Project New Direction’s August 2006 claim in a
                         letter dated November 27, 2006.

                   OIG Position.        We    accept   FNS’    management      decision   on this
                   recommendation.

Recommendation 7

                   Instruct the SA to recover $117,226 in questioned costs from Restoration
                   Ministries, Inc.

                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with the audit finding, and directing the SA to
                         recover questioned costs from Restoration Ministries, Inc. After
                         reviewing the OIG audit work papers supporting this finding, we
                         will direct GA DECAL to recover $64,468 from the sponsor for
                         the reasons discussed below.

                         Block-claiming of meals by program sponsors is a serious
                         problem which represents an indication of misreporting of meal
                         participation. Excessive and/or repeated instances of block-
                         claiming at a significant number of sites are, in fact, grounds for
                         disqualifying a sponsor from the Program. This finding, among
                         others, is a contributory factor in denying future participation in
                         the SFSP by Restoration Ministries, Inc. (unless it can be
                         demonstrated that the many deficiencies cited have been
                         permanently corrected).

                         It has been the longstanding position of FNS, and one fully
                         supported by our Office of General Counsel, to establish (or
                         require State agencies to establish) claims based on meals that are
                         actually documented on-site as improperly claimed or served. As
                         you are aware, one of the guiding principles of Federal debt
                         recognition is that the full amount billed should be both
                         supportable and legally enforceable. In general, it is FNS policy
                         to not establish claims based on statistical projection or
                         extrapolation of findings. Claims are only based on the amounts
                         that can be fully supported and documented during actual site
                         visits.



USDA/OIG-A/27099-63-At                                                                     Page 27
                         Regarding the service of meals that were not held or transported
                         at proper temperatures, we can only concur with disallowing
                         those meals that were actually observed by the auditors as being
                         served and subsequently claimed by the sponsor(s). There was no
                         documentation in the audit work papers to indicate that meals
                         were actually sampled by the auditors (i.e. temperatures were
                         taken) to determine if they tested outside the prescribed criteria
                         for an allowable meal. Without such testing and documentation,
                         it can not be determined with certainty that meals served were
                         unallowable. We will work with GA DECAL to ensure that all
                         sponsors participating in the SFSP are aware of and fully
                         implement procedures to store and transport meals according to
                         Program requirements. The SA will remind all potential SFSP of
                         these requirements by June 1, 2008.

                         We will instruct the SA to recover $64,468 in questioned costs
                         from Restoration Ministries, Inc. within 30 days of the date of
                         this letter.

                   OIG Position. We concur with FNS’ decision to direct the SA to recover
                   questioned costs from the sponsor for: (1) claiming more meals than the
                   number we observed during our site visits, (2) claiming reimbursement for
                   more than the maximum number of meals allowed for a site, (3) claiming
                   more than 300 meals per serving without a waiver, and (4) operating more
                   than the maximum number of sites allowed for a non-profit sponsor.
                   However, before we can concur with the amount FNS agreed to recover
                   ($64,468), FNS needs to provide for our review and concurrence
                   documentation supporting FNS’ calculations for these questioned costs.

                   To reach management decision, it is critical that FNS establish compensating
                   controls when there are indications of serious deficiencies noted during site
                   visits. Also, FNS needs to reconsider its determination of the amount of
                   questioned costs associated with block-claiming and improper food storage
                   and instruct the SA to bill PND for the disallowed costs. A copy of the SA’s
                   bill should be provided to us, along with the estimated date for recovery or
                   resolution of the debt. See OIG Position for Recommendation 5 for a
                   discussion of these issues.

Recommendation 8

                   Instruct the SA to disallow the $20,461 in questioned costs from Restoration
                   Ministries, Inc., that was withheld from their August 2006 claim.




USDA/OIG-A/27099-63-At                                                                    Page 28
                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with this recommendation. Based upon the
                         Management Alert issued by OIG on September 25, 2006, GA
                         DECAL denied Restoration Ministries’ August 2006 claim in a
                         letter dated November 27, 2006.

                    OIG Position. We accept FNS’ management decision on this
                    recommendation.

Recommendation 9

                   Instruct the SA to conduct followup reviews of problematic or seriously
                   deficient sponsors to: (1) ensure sponsor’s claim matches eligible meals
                   observed during SA site visits and that sponsors are not block-claiming
                   meals, (2) disallow meals claimed over the maximum allowable number, and
                   (3) disallow more than 300 meals claimed per serving without a waiver.

                   Agency Response. In its March 28, 2008, response, the FNS stated:

                         FNS concurs with this recommendation. Within 60 days, FNS
                         will instruct GA DECAL to conduct follow-up reviews of
                         problematic or [seriously deficient] sponsors to: (1) ensure
                         sponsors’ claims match eligible meals observed during SA site
                         visits and that sponsors are not block-claiming meals, (2)
                         disallow meals claimed over the maximum allowable number and
                         (3) disallow more than 300 meals claimed per serving without a
                         waiver.

                   OIG Position. We accept FNS’ management decision on this
                   recommendation. To achieve final action, FNS needs to inform OCFO the
                   results of the SA’s followup reviews of its problematic or seriously deficient
                   sponsors.




Finding 3          Sponsors’ Claim Included               Questionable       Operating      and
                   Administrative Costs

                   The two sponsors—PND and RM claimed unsupported operating and
                   administrative expenses. This occurred because the SA was not adequately
                   overseeing sponsors who had been identified as problematic. As a result, the
                   sponsors claimed questionable operating and administrative costs for FYs
                   2005 and 2006. See tables 9 and 10 for the excessive and questionable
                   claims.

USDA/OIG-A/27099-63-At                                                                   Page 29
                                      When sponsors are accepted into the program, they agree to abide by all
                                      program regulations. In particular, they agree to claim reimbursement for
                                      allowable, supportable expenses directly related to operating SFSP. Federal
                                      regulations require that they maintain adequate documentation to support
                                      these expenses. If they fail to maintain adequate documentation, they may be
                                      denied reimbursement for operating and administrative costs claimed.36

                                      Project New Direction, Inc.

                                      Our review revealed the following ineligible expenses were claimed by PND



                                                                       Table 9

                                                          Project New Direction, Inc.
                                           Summary of Questionable Operating and Administrative Costs
                                                            For FYs 2005 and 2006

                                      Description of Expense Type of Cost              FY 2005        FY 2006

                                      Building Rental Expenses       Operating          $6,250         $5,002
                                      Van Rental Expense             Operating          43,157         25,600
                                      Unsupported Food Expense       Operating          24,902          2,687
                                      Kitchen Equipment Expense      Operating           4,500
                                      Computer Rental Expenses       Administrative                     1,000

                                      TOTAL                                            $78,809       $34,289



                                      Questionable Operating Costs

                                      Sponsor Claimed Reimbursement for a Building it Owns

                                      PND included operating expenses for FYs 2005 ($6,250) and 2006 ($5,002)
                                      rent for a building that it, in fact, owned. The sponsor claimed that another
                                      entity owned the building.

                                      SA guidance conveys that sponsors cannot lease and charge rent for space
                                      that they own; they can, however, depreciate facility expenses for buildings
                                      they own.37 Federal regulations state that rental costs under “less than arm’s

36
     7 CFR, section 225.15 (c) (1).
37
     DECAL training video.

USDA/OIG-A/27099-63-At                                                                                     Page 30
                                       length”38 leases are allowable only up to the depreciation or use allowance,
                                       maintenance, taxes, and insurance.39

                                       When OIG questioned the sponsor about the ownership of this building, the
                                       sponsor stated that the building was owned by a different entity, and that
                                       there was an “arm’s length” transaction for leasing the building. Our review
                                       of Dekalb County Georgia property tax records indicated that the Sacred
                                       Heart Fellowship Church, Inc., owned the building. Sacred Heart Fellowship
                                       Church, Inc., and PND have the same common principal officers; both the
                                       sponsor and spouse are the Chief Financial Officer and Chief Executive
                                       Officer respectively for both corporations. The sponsor owned this structure
                                       and property (valued at $2,200 according to tax property records). They could
                                       have legitimately claimed depreciation costs for the 2 years in question but
                                       not rental expenses.


                                                                                   Photo 3
                                                                               Source: OIG
                                                                       Sacred Heart Fellowship Church
                                                                 Building Owned by Sponsor Valued at $2,200




                                       Sponsor Claimed Unsupported Expenses for Van Rentals

                                       PND claimed it rented 10 vans for the SFSP40, even though it could not
                                       provide a valid lease agreement. To verify this expense, OIG attempted to
                                       contact the lessor, but we learned that the physical address listed on the lease
                                       agreements and invoices did not exist. Despite repeated attempts, OIG could

38
   A less-than-arms-length lease is one under which one party to the lease agreement is able to control or substantially influence the actions of the other.
39
   Office of Management and Budget (OMB) Circular A-122, paragraphs 43 b-c.
40
   PND rented six vans in FY 2005 and four vans in FY 2006 to deliver food for the SFSP.

USDA/OIG-A/27099-63-At                                                                                                                             Page 31
                   not confirm the existence of the lessor. When we informed the sponsor’s
                   director that the physical address did not exist, she stated that she placed the
                   wrong address on the rental agreement when she prepared it for the lessor.
                   We asked the sponsor’s director on multiple occasions to provide us with the
                   contact information for the lessor but she failed to do so. As a result, PND
                   could not support $43,157 in FY 2005 and $25,600 in FY 2006 for van rental
                   expenses it had claimed for the 2005 and 2006 SFSPs.

                   Sponsor Could Not Support Food Expense

                   PND claimed and received reimbursement for sack lunches that it claimed
                   were prepared for its sites, but we found that the three invoices provided do
                   no support this expense. As it was submitted, the invoices stated that an
                   organization known as the Youth Force Entrepreneurship prepared the sack
                   lunches. The program director for Youth Force Entrepreneurship stated that
                   this transaction never took place, that his organization does not prepare sack
                   lunches, and that his organization had never received any funds from PND,
                   Inc. When we discussed this situation with the sponsor’s director, she stated
                   that she accidentally misclassified this as a food expense and that the
                   payment was for employing children participating in Youth Force to produce
                   the lunches. The program director at Youth Force stated that young people
                   participating in his program did not produce sack lunches for PND and did
                   not receive payment for doing so. Moreover, he explained that Youth Force
                   does not operate in the summer when this work was supposedly done. PND,
                   claimed $24,902 in FY 2005 and $2,687 in FY 2006 that could not be
                   supported.

                   Sponsor Claimed Rental Expense for Kitchen Equipment Not Delivered

                   PND, claimed rental expenses for kitchen equipment during the 2005 SFSP.
                   Our discussion with kitchen staff disclosed that convection ovens included on
                   the rental invoice were never delivered. However, PND, claimed $4,500 for
                   these convection ovens.

                   PND, entered into a lease agreement with Victory for the World Church for
                   rental of kitchen facilities to operate the SFSP in FY 2005. The lease
                   agreement specified that premises shall be used and occupied solely for food
                   preparation and for no other purposes. Also, the lease agreement specified
                   that PND was permitted to bring in three small floor freezers and one
                   stainless steel double refrigerator to store milk and juice.

                   The invoice showed that PND paid $19,975 for kitchen equipment rental. The
                   following equipment was listed on the invoice: a mixer, two freezers, a
                   cooler, two fryers, two double stack convection ovens, and two chest
                   freezers. Since the lease only specified that three small floor freezers and one
                   stainless steel double refrigerator be used in the kitchen area, we contacted
USDA/OIG-A/27099-63-At                                                                    Page 32
                                      kitchen personnel to verify whether other items listed on the invoice were
                                      actually delivered to the kitchen site and used.

                                      We spoke with PND’s cook who prepared meals for both the 2005 and 2006
                                      SFSP. The cook informed us that all the items listed on the invoice were
                                      delivered and used at the kitchen facility with the exception of the two
                                      convection ovens.

                                      Questionable Administrative Costs

                                      Computer Rental Expenses

                                      PND provided OIG with an invoice totaling $1,000 to support the rental of
                                      two laptop computers for the 2006 SFSP. OIG noticed that the computer
                                      rental invoice lacked many important details—such as a company physical
                                      address, serial numbers, and a signature from the rental company—we
                                      attempted to contact the computer rental business by phone. The phone
                                      number listed on the invoice was no longer in service. The director of PND
                                      insisted that this expense was legitimate and that she would provide the
                                      contact information necessary to support the expense. On numerous
                                      occasions we attempted to obtain a point of contact number for the computer
                                      rental company from the sponsor, however, the director failed to provide this
                                      information.

                                      Restoration Ministries, Inc.

                                      RM also claimed operating and administrative costs in excess of the costs it
                                      could support.

                                      According to FNS Instructions 796-4 allowable costs must be necessary and
                                      reasonable or proper for efficient administration of the program.41 Also, FNS
                                      Instructions 796-4, states allowable administrative costs are costs incurred by
                                      a sponsor related to planning, organizing, and managing a food service
                                      program.42




41
     FNS Instructions 796-4, Rev. 4, paragraph IX.A.1, dated May 21, 1992.
42
     FNS SFSP Financial Management Instructions 796-4 Rev. 4(X)(B), dated May 21, 1992.

USDA/OIG-A/27099-63-At                                                                                      Page 33
                                                     Table 10

                                        Restoration Ministries, Inc.
                         Summary of Questionable Operating and Administrative Costs
                                          For FYs 2005 and 2006

                   Description of Expense Type of Cost              FY 2005        FY 2006

                   Fuel Expenses             Operating               $7,806
                   Salary Expenses           Operating                  403            635
                   Salary Expenses           Administrative           1,680          1,276
                   Audit Expense             Administrative                          1,161
                   Admin Mileage Expenses    Administrative                          4,326

                   TOTAL                                             $9,889         $7,398


                   Questionable Operating Costs

                   Sponsor Used Mileage Rate for Fuel Expenses While Renting Vehicles

                   Sponsors may claim the rental of vehicles and fuel expenses associated with
                   transporting food to feeding sites provided adequate documentation is
                   maintained. If a sponsor owns a vehicle then it may use a mileage rate (not
                   exceeding the Federal limit) for reimbursement purposes.

                   In FYs 2005 and 2006, RM claimed and received reimbursement for renting
                   six vehicles to transport meals to appropriate feeding sites. However, we
                   found that RM failed to maintain adequate support for fuel expenses. Instead
                   of maintaining actual receipts, RM used a mileage rate of 49 cents in
                   FY 2005 to calculate its costs for fuel expenses. Sponsors may only use
                   mileage rates for reimbursement for vehicles that they own. We concluded
                   that the method RM used to document fuel expenses was unallowable. In
                   FY 2005, RM claimed $7,806 for fuel expenses using this methodology.

                   Questionable Administrative Costs

                   Unsupported Administrative Mileage Expenses

                   Sponsors may claim reimbursement for administrative mileage they drive
                   when making required monitoring visits to food sites; however, they must
                   still maintain adequate documentation of any mileage they travel. In addition,
                   for expenses to be reimbursable, sponsors must provide adequate
                   documentation of expenses actually paid.



USDA/OIG-A/27099-63-At                                                                  Page 34
                    In FY 2006, RM claimed $6,678 for administrative mileage expenses, but
                    based upon our review of the sponsor’s documentation, we could find support
                    for only $2,352 in mileage expenses. The sponsor’s director could not explain
                    the discrepancy between the numbers and stated that her accountant filled in
                    the actual numbers on the claim form. For FY 2006, bank records confirmed
                    that only $2,352 was paid to the sponsor’s director and site monitors for
                    mileage expenses. We questioned $4,326 ($6,678 less $2,352) due to the lack
                    of supporting documentation.

                    Unsupported Auditing Expenses

                    RM claimed $2,700 for audit expenses in FY 2006, even though the audit
                    included all of the sponsor’s operations. Specifically, RM received $886,313
                    in grants in FY 2004; however, only $507,641 or 57 percent was from the
                    SFSP.

                    RM should have allocated the audit expense to all of its programs. The
                    sponsor claimed $2,700 when only $1,539 (57 percent) was allowable. The
                    difference of $1,161 is ineligible for reimbursement.

                    Sponsor Over-Claims Salary Expenses

                    RM over-claimed administrative salary expenses of $2,956 ($1,680 for
                    FY 2005 and $1,276 for FY 2006) and operating salary expenses of
                    $1,038 ($403 for FY 2005 and $635 for FY 2006) totaling $3,994 during
                    FYs 2005 and 2006. The sponsor did not dispute the overstated labor costs
                    and she was unable to provide an explanation for these over-claims.

                    In FY 2005, the sponsor claimed $500 for administrative salary expenses that
                    incurred almost 2 weeks before the program began operations. The sponsor
                    was unable to provide justification for this expense. Also, the sponsor was
                    unable to provide an explanation for the additional over-claims of
                    administrative salary costs in FYs 2005 and 2006. For operating costs, the
                    sponsor provided timesheets and payroll records for an employee but failed to
                    provide evidence of checks clearing the bank statements. The sponsor stated
                    that there were problems with the mailing address of the employee; however,
                    she could not explain why the check never cleared the bank.

                    Recommendations for recovery are included in Finding 2.

Recommendation 10

                    Instruct the SA to ensure in its reviews of problematic or seriously deficient
                    sponsors that there is sufficient examination of operating and administrative
                    expenses to assure that they are allowable.

USDA/OIG-A/27099-63-At                                                                    Page 35
                                     Agency Response. In its March 28, 2008, response, the FNS stated:

                                           FNS concurs with this recommendation. Georgia’s DECAL’s
                                           current seriously deficient procedures include conducting either a
                                           follow-up review or an agreed upon procedures (AUP) audit for
                                           sponsors that are deemed problematic or seriously deficient. The
                                           review procedures and instruments used for both follow-up
                                           reviews and AUP audits include the examination of sponsors’
                                           operating and administrative expenses to assure that they are
                                           allowable.

                                           Additionally, within 60 days, FNS will review GA DECAL’s
                                           AUP to ensure they provide thorough examination of operating
                                           and administrative expenses.

                                     OIG Position. We accept FNS’ management decision on this
                                     recommendation. To achieve final action FNS needs to inform OCFO of the
                                     results of its review of GA DECAL AUP.




Finding 4                            Sponsor Used SFSP Program Funds for Purposes Unrelated to
                                     the Program

                                     RM diverted SFSP program funds to other accounts and made unsupported
                                     cash withdrawals from the sponsor’s SFSP bank account. RM maintained
                                     four different bank accounts, and shifted funds between them without regard
                                     for whether the funds would be used for their intended purposes. The
                                     sponsor’s director explained that she managed these funds in this fashion
                                     because she saw no problem using SFSP money for other purposes if all
                                     accounts balanced in the end. RM used $22,361 in SFSP funds for purposes
                                     unrelated to the program’s goal of feeding underprivileged children.

                                     FNS requires that sponsors maintain effective control over and accountability
                                     for all funds, property, and other program assets to ensure that they are
                                     safeguarded and used solely for authorized purposes.43 In order for SFSP
                                     expenditures to be more easily tracked, the SA recommends that sponsors
                                     maintain a separate bank account for program funds. Using a separate bank
                                     account should enable sponsors to improve their management of SFSP funds
                                     and avoid spending these funds improperly.44

                                     Although RM did maintain a bank account for SFSP operations, it withdrew
                                     funds from this account to cover operating expenses for another, unrelated

43
     FNS SFSP Financial Management Instructions 796-4.
44
     DECAL SFSP Policy No: 03/08.

USDA/OIG-A/27099-63-At                                                                                      Page 36
                    program. In June 2006, RM withdrew $305 from its SFSP account to cover
                    another operation; in July 2006, RM withdrew an additional $5,505 from its
                    SFSP account to cover the same operation. Thus, $5,811 in SFSP funds were
                    used for purposes unrelated to SFSP operations.

                    In addition, we noted that the sponsor made large cash withdrawals from her
                    SFSP account. For the 2 months in question, these withdrawals totaled
                    $16,550. When we questioned how these funds were used, the sponsor’s
                    director could not provide any documentation indicating that these funds
                    were used for program purposes. In addition, the funds and cash withdrawals
                    were never repaid to the SFSP account.

Recommendation 11

                    Instruct the SA to ensure in its reviews of problematic or seriously deficient
                    sponsors that SFSP reimbursement funds are used for program purposes.

                    Agency Response. In its March 28, 2008, response, FNS stated:

                         FNS concurs with these recommendations. Currently, [GA]
                         DECAL uses AUP audits for sponsors that are deemed
                         problematic or seriously deficient to ensure that funds are used
                         for program purposes. Within 60 days, FNS will instruct GA
                         DECAL to ensure in its reviews of problematic or seriously
                         deficient sponsors, that SFSP reimbursement funds are used for
                         program purposes. Additionally, within 60 days, FNS will review
                         GA DECAL’s AUP to ensure they provide a thorough
                         examination of program reimbursement to ensure the
                         reimbursements are used for program purposes.

                    OIG Position. We accept FNS’ management decision on this
                    recommendation. To achieve final action, FNS needs to inform OCFO that
                    SA procedures for reviews of problematic or seriously deficient sponsors
                    include steps to ensure SFSP reimbursement funds are used for program
                    purposes. Also, advise OCFO of the results of FNS’ review of the SA AUP
                    to ensure it provides a thorough examination of program reimbursement.




USDA/OIG-A/27099-63-At                                                                    Page 37
Scope and Methodology
                   This audit covered the operations of sponsors participating in the Georgia
                   SFSP in FYs 2005 and 2006. We reviewed supporting documentation for
                   expenditures charged to the program from June 2005 through August 2006.
                   We also reviewed the claims for meal reimbursement from June 2005
                   through August 2006.

                   Audit fieldwork was performed at the FNS Southeast Regional Office; at the
                   offices of the Georgia SA Bright from the Start; and the offices of two PNO
                   sponsors (see Exhibit B). Bright from the Start was selected for review based
                   on having the highest number and size of PNO sponsors in the Southeast
                   Region. For FY 2005, the State of Georgia had three sponsors that exceeded
                   $300,000 in reimbursements.

                   We selected for review two PNO sponsors, PND, and RM based on their size
                   (meals served, reimbursement received) and deficiencies noted during FNS
                   and SA reviews. These sponsors were two of the top three sponsors in claims
                   for reimbursement. In addition, these two sponsors had the highest number of
                   deficiencies noted by FNS and the SA.

                   During the summer of 2006, we conducted unannounced visits to 16 of the
                   sponsors’ feeding sites located throughout the Atlanta, Georgia, metropolitan
                   area (see exhibit B) to determine if sites were accurately reporting the
                   number of children served and to determine if the sites were being
                   administered in accordance with applicable rules and regulations. Initially a
                   judgmental sample was used to select two sites for each sponsor. Two of the
                   sites we selected for PND, were Global All-Stars and PND Allen Wilson.
                   Global All-Stars was chosen because it had the highest meals counts for
                   breakfast and lunch. We chose the second site, PND Allen Wilson because it
                   had high meal counts and deficiencies noted during its FY 2005 site reviews.
                   The two sites that were selected for RM were South Dekalb YMCA and East
                   Coweta Parks and Recreation. We selected these sites because they had the
                   highest meal counts and deficiencies found during their site reviews for
                   FY 2005. After our visits to the initial four sites disclosed serious deficiencies
                   with the two sponsors operations, we expanded our review to include
                   14 additional sites to fully document and develop issues.

                   The audit fieldwork was performed from May 2006 through January 2007.

                   To accomplish our audit objectives, we performed the following audit steps
                   and procedures:




USDA/OIG-A/27099-63-At                                                                      Page 38
                    •    At FNS Southeast Regional Office, we interviewed agency personnel to
                         obtain information and additional guidance the Regional Office issued
                         the SA; identified procedures used for monitoring the SA and sponsor
                         participation in the SFSP; and obtained SFSP financial and participation
                         data.

                    •    At the SA, we interviewed agency personnel to solicit their concerns
                         about the SFSP; reviewed supporting documentation for financial and
                         participation data previously obtained at the FNS Regional Office;
                         evaluated procedures for approving SFSP sponsors and sites; evaluated
                         procedures for providing training to new and existing SFSP sponsors;
                         evaluated monitoring reviews of sponsors participating in SFSP;
                         evaluated controls over processing sponsors’ claims for reimbursement;
                         and completed the judgmental selection of sponsors for subsequent
                         review.

                    •    At the sponsors’ offices, we interviewed program personnel, including
                         monitors, to determine their job duties and obtain an understanding of
                         program operations. We obtained an understanding of the sponsors’
                         systems for tracking (1) the number of meals served, (2) operating costs,
                         and (3) administrative costs. We determined how sponsors ensure that
                         meal service at feeding sites complies with SFSP regulations;
                         determined if the training sponsors provide site supervisors and monitors
                         complies with SFSP requirements; evaluated sponsors’ compliance with
                         monitoring requirements; and determined if claims for reimbursement of
                         SFSP expenses were supported.

                    •    At the sponsors’ feeding sites, we interviewed site supervisors, observed
                         the type meals being served, observed the meal deliveries, documented
                         the meal components, determined if there was adequate food storage,
                         documented the actual start and end times of meal services, determined
                         the accuracy of point of service meal counts, observed if complete meals
                         were being served, and observed if meals were consumed within the
                         designated areas.

                    •    We analyzed claims for meal reimbursement submitted by both sponsors
                         and reviewed sponsors’ accounting data concerning meal counts,
                         operating costs, administrative costs, and program income.

                   This audit was conducted in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/27099-63-At                                                                    Page 39
Exhibit A – Summary of Monetary Results
                                                                                                                      Exhibit A – Page 1 of 1



     RECOMMENDATION
                                                  DESCRIPTION                             AMOUNT                     CATEGORY
         NUMBER
                                                                                                                  Questioned Costs –
                                           Unsupported Costs to PND
                  5                                                                         $98,396                   Recovery
                                            for 2005 and 2006 SFSP
                                                                                                                   Recommended
                                           Unsupported Costs to PND                                               Questioned Costs –
                  6                                                                        $14,36945
                                                for 2006 SFSP                                                       No Recovery
                                                                                                                  Questioned Costs –
                                            Unsupported Costs to RM
                  7                                                                        $117,226                   Recovery
                                            for 2005 and 2006 SFSP
                                                                                                                   Recommended
                                            Unsupported Costs to RM                                               Questioned Costs –
                  8                                                                        $20,46146
                                                for 2006 SFSP                                                       No Recovery
             TOTAL                                                                         $250,452




45
   The amount of questioned costs was withheld from the sponsors’ August 2006 clams per OIG Management Alert recommendations and therefore
recovery is not necessary.
46
   Ibid.

USDA/OIG-A/27099-63-At                                                                                                               Page 40
Exhibit B – Locations Visited
                                                                   Exhibit B – Page 1 of 1


      ORGANIZATION/ENTITY                            LOCATION

        Food and Nutrition Service

        Southeastern Regional Office                Atlanta, Georgia

                State Agency

Georgia Department of Early Care and Learning       Atlanta, Georgia
       (DECAL) – Bright from the Start

              Sponsor’s Office

         Project New Direction, Inc.            Avondale Estates, Georgia
         Restoration Ministries, Inc.              Newnan, Georgia

   Project New Direction’s Feeding Sites

               Allen Wilson #1                      Decatur, Georgia
               Allen Wilson #2                      Decatur, Georgia
   College Park Recreation Center (Brady)         College Park, Georgia
   College Park Recreation Center (Conley)        College Park, Georgia
         East Point Recreation Center              East Point, Georgia
               Global All-Stars                     Decatur, Georgia
                Martel Homes                       East Point, Georgia

    Restoration Ministries Feeding Sites

        Coweta Parks & Recreation                   Newnan, Georgia
           Hapeville Recreation                    Hapeville, Georgia
     New Life Christian Learning Center           College Park, Georgia
       Snapfinger Elementary School                 Decatur, Georgia
           South Dekalb YMCA                        Decatur, Georgia
      Southside PRD/Village Keepers                East Point, Georgia
               Step of Faith                      College Park, Georgia
          Summit Family YMCA                        Newnan, Georgia
         Youth Under Construction                  Jonesboro, Georgia




USDA/OIG-A/27099-63-At                                                          Page 41
Exhibit C – Questioned Costs
                                                                                           Exhibit C – Page 1 of 5



                                    Project New Direction, Inc., FY 2005

                                                     PER CLAIM         PER AUDIT            DIFFERENCE
                    MEALS
  Breakfast                                                 45,684              36,086                      9,598
  Lunch                                                     99,185              89,259                      9,926
                TOTAL                                      144,869             125,345                     19,524
            OPERATING COSTS
A. Actual                                                $315,391            $236,582
B. Meals Times Rate
     Breakfast ($1.42)                                   $ 64,871            $ 51,242
     Lunch ($2.48)                                        245,979             221,362

                    TOTAL                                $310,850            $272,604
Lesser of A or B                                         $310,850            $236,582                     $74,268
      ADMINISTRATIVE COSTS
A. Actual                                                $ 28,558            $ 28,558
B. Meals Times Rate
      Breakfast ($0.14)                                  $    6,396          $    5,052
      Lunch ($0.26)                                          25,788              23,207

                    TOTAL                                $ 32,184            $ 28,259
Lesser of A or B                                         $ 28,558            $ 28,259                      $ 299

TOTAL OPERATING AND                                      $339,408            $264,841                     $74,567
ADMINISTRATIVE COSTS


Total Operating Costs Less Disallowed Costs            Total Administrative Costs Less Disallowed Costs

Total Operating Costs Per Sponsor’s Claim $315,391     Total Admin Costs Per Sponsor’s Claim     $28,558
Building Rental             (6,250)
Van Rental Costs           (43,157)
Operating Salary Expenses (24,902)
Kitchen Equipment Costs (4,500)
Subtotal                    78,809

Total Operating Costs Per Audit           $236,582     Total Admin Costs Per Audit                $28,558




USDA/OIG-A/27099-63-At                                                                                    Page 42
 Exhibit C – Questioned Costs
                                                                                                                      Exhibit C – Page 2 of 5



                                             Project New Direction, Inc., FY 2006

                                                            PER CLAIM                   PER AUDIT                    DIFFERENCE
                      MEALS
   Breakfast                                                             36,299                    24,221                              12,078
   Lunch                                                                 82,351                    55,768                              26,583
              TOTAL                                                     118,650                    79,989                              38,661
        OPERATING COSTS
 A. Actual                                                            $208,117                  $174,828
 B. Meals Times Rate
      Breakfast ($1.47)                                               $ 53,360                  $ 35,605
      Lunch ($2.56)                                                    210,819                   142,766

               TOTAL                                                  $264,179                  $178,371
 Lesser of A or B                                                     $208,117                  $174,828                            $ 33,289
    ADMINISTRATIVE COSTS
 A. Actual                                                            $ 23,339                  $ 22,339
 B. Meals Times Rate
       Breakfast ($0.145)                                              $ 5,263                   $ 3,512
       Lunch ($0.2675)                                                  22,029                    14,918

               TOTAL                                                   $ 27,292                  $ 18,430
 Lesser of A or B                                                      $ 23,339                  $ 18,430                            $ 4,909
 TOTAL OPERATING AND
 ADMINISTRATIVE COSTS                                                 $231,456                  $193,258                          $38,19847


Total Operating Costs Less Disallowed Costs                                Total Administrative Costs Less Disallowed Costs

Total Operating Costs Per Sponsor’s Claim $208,117                         Total Admin Costs Per Sponsor’s Claim                $23,339
Building Rental              (5,002)                                       Computer Lease                                        (1,000)
Van Rentals                 (25,600)
Operating Salary Expenses (2,687)
Subtotal                     33,289

Total Operating Costs Per Audit                       $174,828             Total Admin Costs Per Audit                           $22,339




47
   Total operating and administrative costs includes the August 2006 claim of $14,369 by PND that was withheld by the SA per OIG Management Alert
recommendations.

USDA/OIG-A/27099-63-At                                                                                                                  Page 43
 Exhibit C – Questioned Costs
                                                                                             Exhibit C – Page 3 of 5



                                    Restoration Ministries, Inc., FY 2005
                                                        PER CLAIM         PER AUDIT           DIFFERENCE
                   MEALS
  Breakfast                                                   44,799              42,746                  2,053
  Lunch                                                       93,151              86,672                  6,479
  Snack                                                       32,227              21,733                 10,494
                TOTAL                                        170,177             151,151                 19,026
         OPERATING COSTS
 A. Actual                                                  $314,071            $305,630
 B. Meals Times Rate
      Breakfast ($1.42)                                     $ 63,615            $ 60,699
      Lunch ($2.48)                                          231,014             214,947
      Snack ($0.58)                                           18,692              12,605

                   TOTAL                                    $313,321            $288,251
 Lesser of A or B                                           $313,321            $288,251                $25,070
      ADMINISTRATIVE COSTS
 A. Actual                                                  $ 36,282            $ 34,602
 B. Meals Times Rate
       Breakfast ($0.14)                                     $ 6,272             $ 5,984
       Lunch ($0.26)                                          24,219              22,535
       Snack ($0.07)                                           2,256               1,521

                 TOTAL                                       $32,747             $30,040
 Lesser of A or B                                           $ 32,747            $ 30,040                $ 2,707
 TOTAL OPERATING AND
 ADMINISTRATIVE COSTS                                       $346,068            $318,291                $27,777


Total Operating Costs Less Disallowed Cost                 Total Administrative Costs Less Disallowed Costs

Total Operating Costs Per Sponsor’s Claim $314,071         Total Admin Costs Per Sponsor’s Claim     $36,282
Operating Salary Expenses (635)                            Salary Expense                             (1,680)
Operating Fuel Expenses (7,806)
Subtotal                   8,441

Total Operating Costs Per Audit              $305,630      Total Admin Costs Per Audit               $34,602




USDA/OIG-A/27099-63-At                                                                                        Page 44
     Exhibit C – Questioned Costs
                                                                                                                      Exhibit C – Page 4 of 5



                                             Restoration Ministries, Inc., FY 2006
                                                             PER CLAIM                  PER AUDIT                   DIFFERENCE
                       MEALS
           Breakfast                                                     57,884                    43,236                           14,648
           Lunch                                                         92,430                    61,377                           31,053
           Snack                                                         20,662                    20,218                              444
                  TOTAL                                                 170,976                   124,831                           46,145
            OPERATING COSTS
     A. Actual                                                        $345,617                  $345,214
     B. Meals Times Rate
          Breakfast ($1.47)                                           $ 85,089                  $ 63,557
          Lunch ($2.56)                                                236,621                   157,125
          Snack ($0.59)                                                 12,191                    11,929

                       TOTAL                                          $333,901                  $232,611
     Lesser of A or B                                                 $333,901                  $232,611                        $101,290
     ADMINISTRATIVE COSTS
     A. Actual                                                         $ 37,881                  $ 31,118
     B. Meals Times Rate
           Breakfast ($0.115)                                         $    6,657                $    4,972
           Lunch ($0.2225)                                                20,566                    13,656
           Snack ($0.0575)                                                 1,188                     1,163

                       TOTAL                                          $ 28,411                  $ 19,791
     Lesser of A or B                                                 $ 28,411                  $ 19,791                         $ 8,620
     TOTAL OPERATING AND
     ADMINISTRATIVE COSTS                                             $362,312                  $252,402                      $109,91048


Total Operating Costs Less Disallowed Cost                                 Total Administrative Costs Less Disallowed Costs

Total Operating Costs Per Sponsor’s Claim $345,617                         Total Admin Costs Per Sponsor’s Claim                $37,881
Operating Salary Expenses (403)                                            Admin Mileage Expenses (4,326)
                                                                           Audit Expenses           (1,161)
                                                                           Admin Salary Expenses (1,276)
                                                                           Subtotal                  6,763

Total Operating Costs Per Audit                       $345,214             Total Admin Costs Per Audit                          $31,118


48
   Total operating and administrative costs includes the August 2006 claim of $20,461 by RM that was withheld by the SA per OIG Management Alert
recommendations.
4/3/2008




USDA/OIG-A/27099-63-At                                                                                                                  Page 45
       Exhibit C – Questioned Costs
                                                                                                       Exhibit C – Page 5 of 5




                                           Summary of Over-Claimed Meals
                   PND 2006                 PND 2005                      RM 2006                            RM 2005
    Issue      Breakfast     Lunch       Breakfast     Lunch     Breakfast     Lunch     Snack     Breakfast     Lunch      Snack
Claimed
More Than
OIG
Observed               37          49             0          0         100        359          0            0           0         0
Block-
Claimed             4,872       4,940             0          0       2,710      1,545       230             0           0         0
Claimed
More Than
Maximum               265       3,247        7,378      7,706        2,980      3,506          8        2,053      6,479    10,494
Claim Over
300 Meals
without
Waiver                  0            0            0          0       7,688      8,660          0            0           0         0
Incomplete
Meals                   0            0            0          0         150        519       206             0           0         0
Meals
Served at
More Than
25 Sites            6,904     13,506         2,220      2,220        1,020      1,020          0            0           0         0
Meals Not
Stored or
Held
Properly                0       4,841             0          0            0    15,444          0            0           0         0

 TOTALS           12,078      26,583         9,598      9,926       14,648     31,053       444         2,053      6,479    10,494

  Note: The totals for breakfasts and lunches for each fiscal year will equal the difference by meal type for each sponsor on
  Exhibit C, pages 1 through 4. Also, the totals by fiscal year and meal type will equal the exceptions taken for each issue in
  Finding 2.




  4/3/2008




  USDA/OIG-A/27099-63-At                                                                                              Page 46
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 7




4/3/2008




USDA/OIG-A/27099-63-At                     Page 47
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 7




4/3/2008




USDA/OIG-A/27099-63-At                     Page 48
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 7




4/3/2008




USDA/OIG-A/27099-63-At                     Page 49
Exhibit D – Agency Response
                              Exhibit D – Page 4 of 7




4/3/2008




USDA/OIG-A/27099-63-At                     Page 50
Exhibit D – Agency Response
                              Exhibit D – Page 5 of 7




4/3/2008




USDA/OIG-A/27099-63-At                     Page 51
Exhibit D – Agency Response
                              Exhibit D – Page 6 of 7
Exhibit D – Agency Response
                              Exhibit D – Page 7 of 7
